                                                                           Issue Date
                                                                                    March 14, 2012
                                                                            
                                                                           Audit Report Number
                                                                                        2012-BO-1002




TO:            Jennifer Gottlieb-Elazhari, Program Center Coordinator, Office of Public
                  Housing, Hartford Field Office, 1EPHP
               Craig Clemmensen, Director, Departmental Enforcement Center, CACB


FROM:
               John Dvorak, Regional Inspector General for Audit, (Boston) Region1, 1AGA

SUBJECT: The Housing Authority of the City of Stamford, CT, Did Not Properly
           Administer and Oversee the Operations of Its Federal Programs


                                          HIGHLIGHTS

    What We Audited and Why

                We audited the Housing Authority of the City of Stamford, CT’s administration
                of its Federal housing programs1 based on an anonymous complaint. Our
                objective was to determine whether the Authority followed U.S. Department of
                Housing and Urban Development (HUD) requirements and its own policies and
                procedures in the administration of its Federal housing programs.


    What We Found


                The Authority did not properly administer its Federal programs in accordance
                with HUD requirements, Federal regulations and laws, its own policies and
                procedures and its annual contributions contracts. Specifically, it failed to

1
 Federal programs included Operating Fund, Section 8 programs (including the Housing Choice Voucher program,
Section 8 Moderate Rehabilitation program, and Section 8 Moderate Rehabilitation Single Room Occupancy
program), and Capital Fund programs. The Authority was also awarded an American Recovery and Reinvestment
Act grant in 2009 and HOPE VI Revitalization grant in 2003.
                          Fully reconcile its interprogram transactions in its revolving fund account;
                          Maintain adequate supporting documentation to demonstrate that it
                           properly charged salaries and associated costs;
                          Comply with HUD procurement regulations and its own procurement
                           policies;
                          Pay only eligible, supported, and necessary program expenses;


                  As a result, the Authority 1) improperly wrote off a $2.6 million dollar
                  interprogram imbalance as a prior period adjustment, and had more than $7.5
                  million in unsupported transactions recorded in its interprogram accounts, 2)
                  could not show that at least $7.6 million in salaries and related costs were
                  properly charged to federal programs, 3) could not demonstrate that more than
                  $2.5 million in contract costs charged to Federal programs were reasonable
                  program expenses, 4) paid more than $95,000 in questioned costs charged to
                  federal programs that were not eligible or supported program expenses. Further,
                  based on the nature and extent of the multiple significant areas of noncompliance,
                  the Authority may be in substantial default with its annual contributions
                  contracts.2 Additionally, the lack of adequate internal controls in place at the
                  Authority put it at a higher risk for potential fraud, waste, and abuse.


    What We Recommend


                  We recommend that the Program Center Coordinator of HUD’s Hartford Office
                  of Public Housing inform the Deputy Assistant Secretary for Public and Indian
                  Housing for Field Operations of the Authority’s potential substantial default with
                  section 17 of the Annual Contributions Contract and require the Authority to (1)
                  support more than $17.7 million in unsupported costs identified during the audit
                  related to interfund transactions, cost allocation, procurement, and questionable
                  disbursements; (2) repay any amounts it cannot support; and (3) repay the
                  $49,095 in ineligible costs identified during the audit. We also recommend that
                  HUD provide technical assistance to the Authority to establish an effective
                  procurement system and that the Authority’s management and staff are properly
                  trained regarding Federal procurement requirements.

                  Finally, we recommend that the Director of HUD’s Departmental Enforcement
                  Center review the actions of the Authority’s board of commissioners, executive
                  director, former executive director, and consultants and take appropriate
                  administrative actions if warranted.

2
 HUD may determine that events have occurred or that conditions exist that constitute a substantial default if a
public housing authority is determined to be in violation of Federal statutes, including but not limited to the United
States Housing Act of 1937, or in violation of regulations implementing such statutory requirements, whether or not
such violations would constitute a substantial breach or default under provisions of the relevant annual contributions
contract (24 CFR (Code of Federal Regulations) 901.200.


                                                          2
           For each recommendation in the body of the report without a management
           decision, please respond and provide status reports in accordance with HUD
           Handbook 2000.06, REV-3. Please also furnish us copies of any correspondence
           or directives issued because of the audit.


Auditee’s Response


           We provided the Authority the report on February 21, 2012, held an exit
           conference with officials on February 23, 2012, and received auditee comments
           on March 2, 2012. The Authority generally agreed with the findings and
           recommendations and has begun implementing some of the recommendations.
           The complete text of the auditee’s response, along with our evaluation of that
           response, can be found in appendix B of this report. We did not include in the
           report all of the attachments provided with the Authority’s response due to the
           volume of documents provided, however, it is available upon request.




                                           3
                            TABLE OF CONTENTS

Background and Objective                                                          5

Results of Audit
      Finding 1: The Authority Did Not Properly Administer Its Federal Programs   7

Scope and Methodology                                                             21

Internal Controls                                                                 23

Appendixes
   A. Schedule of Questioned Costs                                                25
   B. Auditee Comments                                                            26
            and OIG’s Evaluation of Auditee Comments                              55
   C. Applicable Criteria and Violations
                                                                                  60




                                            4
                            BACKGROUND AND OBJECTIVE

The United States Housing Act of 1937 established the Federal framework for government-
funded affordable housing. The United States Congress established public housing to promote
the general welfare of the United States by employing the funds and credit of the United States to
assist cities such as Stamford in providing decent and safe dwellings for low-income families.
The U.S. Department of Housing and Urban Development (HUD) disperses funds to public
housing agencies under annual contributions contracts to provide funding for housing assistance
for eligible, low-income families.3 One amendment to this Act, the Quality Housing and Work
Responsibility Act of 1998, created the Housing Choice Voucher program. This program
provides HUD funding to public housing authorities to pay rental subsidies directly to
multifamily housing owners on behalf of eligible tenant families.

The Housing Authority of the City of Stamford, doing business as Charter Oak Communities,
was incorporated under the laws of the State of Connecticut. The Authority operates under a
board of commissioners form of government to provide safe and decent housing to low- and
moderate-income families and elderly individuals. In addition to these developments, the
Authority operates State-owned elderly and moderate rental developments. The Authority also
had four component units: North Street Elderly Housing Corporation (NSEHC), Stamford
Elderly Housing Corporation (SEHC), Glenbrook Road Elderly Housing Corporation (GREHC),
and Rippowam Corporation. SEHC and GREHC are not-for-profit corporations created to
provide housing and social economic opportunities for the benefit of low- to moderate-income
elderly people. NSEHC is the corporate general partner of a separate limited partnership, and
Rippowam Corporation, the Authority’s instrumentality, is a wholly owned subsidiary and acts
as a developer, stockholder, fundraiser, and umbrella services company for the Authority. These
entities are considered to be component units because of their close association with the
Authority.

The Authority’s fiscal years 2008 and 2009 independently audited financial statements contained
several findings, including a lack of control procedures evidenced by many accounting errors,
the Authority’s difficulty in retaining and storing source documentation for accounts payable,
and its inability to produce supporting documentation on demand. The auditors also found that
the Authority’s interprogram accounts did not balance at the end of fiscal year 2009. In addition,
certain expenses were incorrectly charged to intercompany accounts for several of the
Authority’s programs. The auditors concluded that the lack of control procedures over financial
reporting and compliance could cause the financial statements to be materially misstated and
Federal or State dollars to be used for non allowable costs. The Authority’s fiscal years 2009 and
2010 independent public accountant reports noted that the Authority took appropriate action to
correct prior findings. The Authority brought in consultants to help with the accounting
deficiencies identified and also replaced its accounting staff.




3
    The U.S. Housing Act of 1937 is codified at 42 U.S.C. (United States Code) 1437.


                                                          5
The Authority was awarded more than $61 million in Section 8 assistance, Public Housing
Operating Fund grants, and Public Housing Capital Fund4 grants for fiscal years 2008 to 2011.
The Authority implemented Asset Based Management effective July 1, 2010. The Authority
also was also awarded a HOPE VI Urban Revitalization competitive grant in 2003 of more than
$19.5 million.



                 Section 8          Operating          Capital Fund
                                                                              Total awarded
    Year         programs             fund              program


     2008     $15,936,898         $2,637,412        $1,310,555             $19,884,865
     2009     $13,598,398         $2,596,057        $2,959,420             $19,153,875
     2010     $19,266,275         $2,437,695        $1,210,790             $22,914,760
    Total     $48,801,571         $7,671,164        $5,480,765             $61,953,500

We received an anonymous complaint indicating that the Authority may not have been properly
administering its programs in accordance with requirements. Our objective was to determine
whether the Authority properly administered its Federal housing programs in accordance with
HUD requirements and its own policies and procedures. Specifically, we wanted to determine
whether the Authority

           Properly reconciled its interprogram accounts,
           Properly charged salaries and related expenses to its Federal programs in accordance
            with Federal requirements,
           Procured its contractors in accordance with Federal procurement requirements,
           Charged only allowable and supported costs to its Federal programs,
           Followed its personnel policies when hiring or promoting staff, and
           Followed its travel policies.




4
    This amount includes a more than $1.6 million American Recovery Act Capital Fund grant awarded in 2009.


                                                         6
                                      RESULTS OF AUDIT

Finding 1: The Authority Did Not Properly Administer Its Federal
Programs

The Authority failed to properly administer its Federal programs. Specifically, it did not

          Fully reconcile its interprogram transactions in its revolving fund account;
          Maintain adequate supporting documentation to demonstrate that it charged salaries and
           associated costs in accordance with Federal requirements;
          Maintain adequate documentation to demonstrate that it properly awarded and
           administered its contracts and purchase orders in accordance with Federal requirements.
          Show that it paid only eligible and supported program expenses;
          Comply with its personnel policies, including hiring its executive director and other
           staff, maintaining adequate personnel records, and performing interim evaluations; and
          Comply with its travel policies when reimbursing expenses.

This condition occurred because the Authority and its board disregarded or failed to follow
Federal regulations and laws, HUD requirements, or its own personnel policies.5 Additionally,
the board did not fulfill its fiduciary responsibilities to adequately monitor and oversee Authority
operations and ensure that adequate internal control procedures were in place and followed, and
Authority staff was not always aware of regulations and program requirements. As a result, the
Authority (1) had more than $7.5 million6 in unsupported transactions recorded in its
interprogram accounts and improperly wrote off a $2.6 million imbalance as a prior period
adjustment,7 (2) could not show that at least $7.6 million in salaries and related costs was
properly charged to Federal programs, (3) could not demonstrate that more than $2.5 million in
contract costs charged to Federal programs were for reasonable and supported program expenses,
(4) paid more than $95,000 in questioned costs charged to Federal programs that was not for
eligible or supported program expenses, (5) could not assure HUD that it hired the most qualified
individuals at the best possible prices in accordance with Federal procurement requirements and
its own personnel policies, and (6) could not show that management staff and consultants were
reimbursed the proper amount of travel expenses.

Based on the nature and extent of the multiple significant areas of noncompliance, the Authority
may be in substantial default with its annual contributions contracts. Additionally, with a lack of
adequate internal controls in place at the Authority, there was a higher risk of potential fraud,
waste, and abuse.


5
  See appendix C for criteria used.
6
  This amount was shown on its unaudited fiscal year 2011 financial data schedule provided to us on January 17,
2012.
7
  The Authority reversed the $2.6 million prior year adjustment during our audit, however, was unable to support
how it identified the imbalance.


                                                         7
    Interprogram Transactions Not
    Fully Reconciled

                 HUD requires that any funds deposited into a revolving fund be traceable to their
                 original source program. HUD also requires that payments from a revolving fund
                 for the expenses of a program not exceed the funds deposited into the revolving
                 fund for that same program and used only for that program. For the Housing
                 Choice Voucher program, program receipts may be used only for Housing Choice
                 Voucher program expenditures.8

                 The Authority’s revolving fund account had not been reconciled on a routine basis.
                 The Authority had a revolving fund account that it used to hold Federal and State
                 program funds and pay the expenses of its various programs. However, it did not
                 ensure that the payment of expenses from the revolving fund did not exceed the
                 funds on deposit in the revolving fund from each source program as required. Per its
                 unaudited financial data schedule for the period ending June 30, 2011, the Authority
                 had more than $7.5 million in interprogram transactions recorded in its interprogram
                 accounts.

                 As of November 30, 2011, Authority records showed that the component program
                 units, including two project-based Section 8 multifamily projects and a nursing
                 home that it managed, and its Section 8 program had inadequate deposits to the
                 revolving fund of more than $2.7 million. Therefore, State and Federal program
                 funds paid expenses of these programs. According to the controller, the Authority
                 was working towards paying down the amounts owed by its component units.
                 According to the executive director, component unit balances go back two to three
                 years. Therefore, the Authority has loaned Federal funds to these component units
                 without HUD approval, which is a violation of its ACCs and Federal appropriations
                 laws.9 The controller stated the Authority had the Section 8 funds available but had
                 not been making monthly transfers to the revolving fund.

                 In addition to the interfund transactions indicated above, there was a $2.6 million
                 imbalance in the Authority’s interprogram accounts on June 30, 2009. To avoid a
                 disclaimer opinion from the independent public accountant,10 the Authority made
                 a prior year adjustment, reducing $2.6 million in its Public Housing Operating
                 Fund account, and reduced equity by $2.6 million. This write-off was explained
                 on the financial statements as follows: “The prior period adjustment in the Public
                 Housing programs of $(2,650,172) was for adjustments for prior year interfund
8
  See appendix C for criteria used.
9
  Each year Congress appropriates funding for specific HUD programs. Through annual contributions contracts and
grant agreements, HUD entrusts housing authorities with this funding to operate Federal public housing projects,
fund capital repairs to these Federal public housing projects and provide Housing Choice Vouchers to eligible
families.
10
   In 2009, the independent public accountant told the Authority that it needed the interprogram accounts to be
reconciled or it would issue a disclaimer of opinion on its 2009 audited financial statements.


                                                       8
                    transactions improperly recorded as accounts receivable or interfund balances and
                    not expenses.” The Authority reversed its $2.6 million prior period adjustment
                    during its current independent public accountant audit for the period ending June
                    30, 2011. The executive director stated that he was uncomfortable with the
                    original 2009 adjustment. The fee accountant stated he had reconciled it;
                    however, neither the Authority or fee accountant was able to provide support
                    showing how it reconciled this amount. According to its independent public
                    accountant and executive director, the reversal of the prior period adjustment
                    made to the Public Housing Operating Fund reserve account was based on
                    additional work that showed that development costs of tax credit replacement
                    properties were not properly accounted for and costs were misclassified as the
                    obligation of the Public Housing Operating Fund program. Therefore, the
                    Authority improperly reduced its Public Housing Operating Fund program reserve
                    account for a two-year period.

                    These interfund imbalances occurred because the Authority had maintained two
                    separate accounting systems and staff was not properly accounting for
                    transactions of its various programs. Additionally, the Authority did not ensure
                    that expenditures from the revolving fund for a program did not exceed the funds
                    deposited into the revolving fund for that program and that interprogram accounts
                    were reconciled on a routine basis and any imbalances were researched and
                    corrected accordingly. Authority staff was also not aware of HUD requirements
                    and how to properly use the revolving fund account. As a result of these
                    deficiencies, some programs may have overstated expenses, while other programs
                    may have understated expenses. As a result of the Authority’s actions, neither
                    HUD nor the authority had a proper understanding of the expenses of the
                    Authority’s programs.


     Inadequate Support for Salary
     and Related Costs


                    The Authority did not maintain adequate supporting documentation to demonstrate
                    that it properly charged at least $6.7 million in salaries and associated salary costs,
                    including payroll taxes and employee fringe benefits, to its Federal programs in
                    accordance with HUD and Federal requirements.11 Specifically, it was not able to
                    provide support, such as salary distribution sheets, for the period January 2008 to
                    February 2010 to show how these costs were charged to its Federal programs and
                    could not provide support to show how more than $956,000 in undistributed salaries
                    was expensed to its programs. Further, although the Authority had salary
                    distribution sheets for March to June 2010, it could not support the amount or
                    percentages charged for its central office staff and could not always support amounts
                    charged for its maintenance and program staff. For example, 98 percent of the cost
                    for the vice president of administration, executive assistant to the executive director,
11
     See appendix C for criteria used.


                                                       9
                 and buildings and grounds secretary was charged to the Public Housing Operating
                 Fund program. The Authority’s cost allocation plan assigned direct cost to the
                 applicable program and generally distributed central office costs to programs on a
                 per unit basis. However, the Authority had not fully implemented this plan and
                 made adjustments to it without adequately documenting the reason for the
                 adjustments.12 According to its fee accountant, salaries were charged based on what
                 the Authority had available in its budgets. Additionally, the Authority’s accounting
                 and executive staff performed work for its instrumentality, and another
                 instrumentality employee performed work for the Authority. However, there was no
                 shared services agreement, time was not tracked, and salary costs were not charged
                 to or by the instrumentality for these employees.

                 These unsupported costs occurred because the Authority lacked adequate internal
                 controls over cost allocation and record keeping and charged costs based on what it
                 had available in its budgets. Additionally, the Authority assumed the services
                 provided by Authority staff and to the instrumentality, and the services provided to
                 the Authority by an employee of the instrumentality were equal and offset each
                 other. As a result, HUD had no assurance that at least $6.7 million in salary and
                 associated salary costs charged to Federal programs was for supported program-
                 related costs and that an additional $956,000 in salary costs was properly allocated
                 to Federal programs. Therefore, the Federal programs may have been overburdened
                 with ineligible costs.


     Inadequate Documentation To
     Support Compliance With
     Procurement Requirements and
     Authority Policies


                 The Authority did not maintain adequate documentation to demonstrate that it
                 properly awarded and administered its contracts13 and purchase orders in
                 accordance with Federal requirements and its own procurement policy.14
                 Specifically, it

                         Failed to maintain a contract register or contract log or adequate
                          procurement files to show the history of the procurement,15 including
                          documenting the necessity of the procurement and maintaining original
                          procurement documents, evaluations, independent cost estimates, and a
                          justification and cost analysis for sole source contracts;
12
   The Authority also used this cost allocation plan when charging other indirect costs identified throughout the
finding, such as procurements, disbursements, and travel costs. Any amounts questioned for these other indirect
costs were based on what was charged to the Federal programs.
13
   Capital Fund procurements reviewed were adequate.
14
   See appendix C for criteria used.
15
   Small purchase procurements were those under $100,000, and large procurements were $100,000 or more. We
found deficiencies in 7 small purchase procurements and 14 of 15 large procurements reviewed.


                                                        10
                          Did not always have written agreements or ensure that its written
                           agreements with the Authority included the total amount of the contract,
                           contract terms, or necessary contract clauses and were signed by the
                           contractor or the Authority;
                          Exceeded the board-approved amounts or terms without obtaining
                           additional approval and was not always able to provide board approval for
                           contracts;16
                          Did not document that it reviewed vendor and contractor performance to
                           ensure that vendors and contractors performed the needed services; and
                          Paid consultant invoices, including travel costs, without obtaining receipts
                           for travel-related costs.

                  For example, in eight instances, the total payments to the contractor exceeded the
                  board-approved amount or terms (payments were made after the contract
                  expired); however, the Authority never went back to the board to receive approval
                  to make additional payments or extend the contract. During our audit period, the
                  Authority made more than $8.9 million in payments to the 15 contractors. As of
                  June 30, 2011, we identified more than $3.9 million in payments that exceeded
                  the board-approved terms to eight vendors and almost $1.4 million in payments to
                  four vendors that were not supported by a board resolution. Therefore, the
                  Authority made more than $5.3 million in payments to these vendors without
                  proper board approval.17

                  In one case, the Authority used a contractor for various services, including
                  landscaping work, masonry, painting, asphalt repairs, and other work using
                  contracts that had expired in December 2007 and did not rebid this work until
                  December 2010. This contractor was paid $3.6 million18 of which, more than $3
                  million was paid from January 2008 to January 2011.The independent public
                  accountant notified the Authority during its fiscal year 2010 audit of the expired
                  contracts,19 however, the Authority didn't rebid these contracts until December
                  2010, and instead added a document dated September 16, 2010 stating "Please
                  consider this memorandum as an addendum to the current contract dated
                  February 2006 for Masonry repair20 at Charter Oak Communities" to the file.
                  There were also several deficiencies with the rebid of these services such as
                  incomplete documents and contracts, missing contract clauses and contract
                  amounts. The board resolution also did not include a not to exceed amount. The
                  new contracts were effective February 1, 2011.




16
   In two instances, the contract was signed and effective before board approval was received.
17
   Based on its allocation method, not all of the contract costs were charged to Federal programs.
18
   Of this amount, almost $1.2 million was charged to Federal programs.
19
   This was not included in the independent public accountant audit report in fiscal year 2010, but was included in its
management discussion points to the Authority.
20
   The agreement provided to us for masonry work had actually expired in 2004.


                                                          11
                 The Authority also paid gas charges that were not part of its agreements with this
                 contractor. According to the chairman and vice chairman of the board, they were
                 not aware that contracts exceeded the approved amount.

                 In another example, the Authority circumvented procurement requirements when
                 it hired two different consulting firms to perform similar accounting services for
                 the Authority under two separate requests for proposals. Specifically, while the
                 Authority was putting together the second request for proposal, the Authority
                 allowed the first consulting firm to bill for services performed by an employee of
                 the second consulting firm. This person was not an employee of the first
                 consulting firm.21

                 This condition occurred because of inadequate monitoring and oversight by the
                 board, the Authority’s inadequate internal controls over the award and
                 administration of its contracts and purchase orders, its lack of a purchase order
                 and encumbrance system, and inadequate record keeping and because
                 management and staff were not familiar with or circumvented procurement
                 regulations. As a result, the Authority could not assure HUD that its
                 procurements were competitive and complied with Federal procurement
                 requirements and that more than $2.5 million22 in costs charged to its Federal
                 programs was reasonable and supported.


     $95,578 in Ineligible and
     Unsupported Costs


                 The Authority charged more than $95,000 in questioned costs, including $49,095
                 in ineligible costs and $46,483 in unsupported costs, to its Federal programs that
                 did not meet Federal requirements.23 The Authority paid for (1) flowers and gift
                 baskets for employees and board members and food for Christmas parties,
                 Halloween parties, and other meals, including catered board meetings; (2)
                 donations to charities and contributions for sponsor support of conferences; (3) a
                 $15,000 restoration of a mural, which was misclassified and not an eligible HOPE
                 VI demolition expense; and (4) $2,400 in gas charges to its former executive
                 director and $500 to its deputy director and based on available documentation,
                 also paid more than $11,000 in gas charges to one of its contractors.24

                 The current and former executive directors, the former deputy director, and the
                 chief operating officer also charged several meals on Authority-issued credit cards
                 at local restaurants in Stamford, CT, and surrounding towns. Both the current and

21
   There were other deficiencies identified with this procurement and with the procurement for consultant two.
22
   Based on the Authority’s allocation method, not all procurement costs reviewed were charged to Federal
programs.
23
   See appendix C for criteria used.
24
   There was no agreement in place allowing the Authority to pay for these costs.


                                                        12
                    former executive directors also charged food for board meetings to their credit
                    cards, in some cases, from high-end restaurants, and the charges were sometimes
                    $500 or more. In several instances, both the current and former executive
                    directors charged to their credit cards what could be considered extravagant
                    meals. For example, the current executive director, chief operating officer, and
                    chairman of the board went to dinner at a high-end restaurant, and the bill was
                    more than $300, which averaged $100 per person. Most of the receipts did not
                    show what was purchased. These meals were not eligible program expenses and
                    must be repaid to the Authority’s Federal programs.

                    Additionally, the former executive director rarely submitted receipts for expenses
                    charged to his Authority-issued credit card, including meals and local hotel stays.
                    All meals and hotel stays that he charged were ineligible costs, and all other costs
                    paid for by the Authority for credit card charges were unsupported. The
                    Authority also did not always pay its credit card bills on time and incurred $620
                    in late fees and finance charges.

                    Additionally, in one instance, a check was voided and did not show up as paid on
                    the Authority’s bank statements; however, it was shown as a paid expense in the
                    Authority’s cash disbursement journal and was not voided. The Authority was
                    not able to provide support for several payments. Therefore, the eligibility of the
                    payments could not be determined.

                    This condition occurred because the Authority lacked internal controls to ensure
                    that costs charged to Federal programs were eligible and supported costs.
                    Specifically, (1) requests for payments were signed off on and paid without
                    supporting documentation or an explanation as to why the expense was a
                    necessary and reasonable program expense, (2) the Authority did not have
                    controls in place to ensure that employees were not paid twice for the same
                    expense (through an advance and then again on a travel reimbursement), (3) the
                    Authority did not have adequate controls to ensure personal charges on the credit
                    cards were eligible expenses, and (4) the Authority did not have adequate controls
                    to ensure that bills were paid in a timely manner to avoid late fees and finance
                    charges. As a result, more than $95,000 in disbursements may not have been used
                    for their intended program purposes to assist low-income households and were
                    questionable.


     Personnel Policies Not Followed

                    The Authority and its board also did not comply with its personnel policies,
                    including hiring its executive director and other staff, maintaining adequate
                    personnel records, and performing interim evaluations. This noncompliance
                    occurred because the board disregarded the Authority’s personnel policy and
                    Federal procurement25 requirements when it replaced the executive director in
25
     See appendix C for criteria used.


                                                     13
                 January 2009 with a consultant that had been working for the Authority. The
                 board also disregarded its legal counsel’s advice to amend its personnel policies
                 so that it could fill positions on a temporary basis without following its personnel
                 policies before it made the interim executive director the executive director in
                 March 2010. As a result, HUD had no assurance that the most qualified staff was
                 put into place to correct the serious deficiencies identified by outside consultants
                 and auditors in the most timely and efficient manner and at the lowest salaries
                 consistent with other salaries in the area.

                 Executive Director

                 The board disregarded Authority personnel policies and procurement
                 requirements when it replaced its executive director. It appointed a long-time
                 Authority consultant as its interim executive director effective January 9, 2009,
                 and its January 2009 board minutes and a board resolution showed that there
                 would be a search committee to find a permanent executive director.26 However,
                 the board entered into an agreement with the instrumentality for acting executive
                 director services, effective March 26, 2009, instead of performing a search for an
                 executive director. Although there was an employment agreement in place
                 between the instrumentality and the consultant, he was paid under his expired
                 consultant contract up to July 2009 and did not become an employee of the
                 instrumentality until July 2009.27 Therefore, the board was required to follow
                 procurement regulations since it elected to use a consultant rather than an
                 employee as its interim executive director. The board also did not post the
                 available position in accordance with its personnel policy. Further, it failed to
                 follow legal advice from its counsel, who recommended that the board amend the
                 Authority’s personnel policies before it filled positions on a temporary basis
                 without following its personnel policies.28 When the board renewed its agreement
                 with the instrumentality to continue to provide executive services in March 2010,
                 it also revised its scope of services from an acting executive director to an
                 executive director; thereby making the position permanent.29

                 The Authority’s instrumentality hired the acting executive director at a salary of
                 $239,500 in July 2009.30 Its former executive director’s base salary was
                 $170,000. Base salary of a Level IV Executive according to the 2012 Executive
                 Schedule was $155,500. Therefore, the Authority may not have paid the best




26
   The interim executive director signed an employment agreement with the instrumentality as vice president,
effective January 1, 2009.
27
   On July 8, 2009, the interim executive director became the president of the instrumentality under an addendum to
the January 1, 2009, employment agreement.
28
   The board sought this advice before renewing its agreement with the instrumentality for executive director
services in March 2010.
29
   The instrumentality renewed its president’s employment agreement, effective April 1, 2010.
30
   This amount was for his base salary only.


                                                        14
                  possible price for this position and may be incurring ineligible costs for fiscal year
                  2012.31

                  Further, the chairman of the instrumentality’s board of directors, who was also the
                  chairman of the Authority’s board, authorized an improper payment of $18,275 to
                  the interim executive director for retirement compensation in accordance with his
                  January 2009 employment agreement, although he was not an employee of the
                  Authority or its instrumentality during that period.32

                  Deputy Director and Other Positions

                  The board also did not ensure that the Authority followed its personnel policies
                  when it replaced its deputy director and other staff. The Authority replaced its
                  deputy director with its director of human resources without posting the
                  position.33 This individual was promoted 6 months later to a newly created
                  position of chief operating officer, which included a $35,000 salary increase to
                  $175,000, although this position was still essentially that of the deputy director
                  and vice president of administration. Base salary of a Level IV Executive
                  according to the 2012 Executive Schedule was $155,500. Therefore, the Authority
                  may not have paid the best price for this position and also may be incurring
                  ineligible costs for fiscal year 2012.

                  The Authority also could not always show that it posted positions internally or
                  externally to obtain a qualified pool of applicants and allowed consultants to
                  apply under internal job postings. In addition, the Authority posted some
                  positions and rather than hiring the applicant as an employee, it first hired him or
                  her as a consultant and later as an employee under an internal job posting.
                  Therefore, it also did not follow proper procurement requirements for hiring
                  consultants and temporary labor and may not have paid the best possible prices.
                  In one instance, the Authority hired a temporary labor employee without
                  performing a background check, and this person had a violent criminal record and
                  had been recently released from prison. The Authority was not able to provide
                  support to show the position for which this person was hired or that this individual
                  was qualified to perform the work.




31
   The FY 2012 Appropriations Act in general requirement section 234 states that none of the funds made available
by this Act for purposes authorized under section 8 (only with respect to the tenant-based rental assistance program)
and section 9 of the United States Housing Act of 1937 (42 U.S.C.1437 et seq.) may be used by any public housing
agency for any amount of salary, for the chief executive officer of which, or any other official or employee of which,
that exceeds the annual rate of basic pay payable for a position at level IV of the Executive Schedule at any time
during any public housing agency fiscal year 2012. (b) Subsection (a) shall take effect 120 days after the date of
enactment of this Act.
32
   This amount was paid for with State program funds and charged to the Authority’s accounts and not the
instrumentality.
33
   The revised job title was vice president of administration.


                                                         15
                    Inadequate Personnel Records

                    The Authority did not always maintain adequate personnel records for its staff.
                    For example, it did not have in its files basic personnel documentation for its
                    executive director and chief operating officer or a former director of finance,
                    including an application, resume, or reference checks. There had been
                    improvements in the documentation in the personnel files for employees that it
                    had hired within the last year or so. The Authority also did not always perform or
                    document that interim evaluations were performed in accordance with its
                    personnel policies.


     Travel Policies Not Followed


                    The Authority did not always pay the correct travel reimbursements to its
                    management and consultant staff. It also did not consistently follow its travel
                    policy.34 For example, the executive director attended a conference in August
                    2009 and booked a hotel room for the night. However, he decided not to spend
                    the night before the cancelation deadline but did not cancel the reservation before
                    the deadline. The Authority paid for the hotel room and was not repaid for the per
                    diem advance he received for meals and incidentals. This charge could have been
                    avoided if the executive director had canceled the hotel room in a timely manner.
                    In another example, the former executive director, current executive director, and
                    an employee of the Authority’s instrumentality were paid twice for meals. They
                    received a check for per diem according to the Authority’s travel policy and
                    charged meals on Authority credit cards while they were in travel status during
                    the same period. In another example, the chief operating officer used the hotel
                    rate of $211 and requested and received an advance for that amount instead of the
                    correct meals and incidentals rate of $71 for her trip. There was no control in
                    place to ensure that the correct rate was used. After we brought this matter to the
                    Authority’s attention, the chief operating officer wrote a check to the Authority
                    for the overpayment.

                    The Authority also paid travel expenses for two of its consultants and an
                    employee of its instrumentality, which was not covered in the Authority’s travel
                    policy or its contracts with these consultants. The Authority paid the travel
                    expenses of consultants without adequate supporting documentation such as hotel
                    bills and receipts. It also paid these consultants 100 percent per diem for every
                    day they worked. However, the Authority could not ensure that they were on
                    travel status as hotel receipts were not provided.

                    This condition occurred because the Authority did not have the necessary controls
                    in place to ensure that it paid the correct travel costs. Specifically, the Authority
                    lacked controls to ensure that
34
     See appendix C for criteria used.


                                                     16
                         Travel expenses were paid only once,
                         Management’s travel expenses were properly reviewed and approved,
                         The correct per diem rates were used and only 75 percent of per diem was
                          provided on the day of departure and the last day of travel,
                         Travel costs were paid only for travel that actually took place and to cover
                          actual expenses incurred,
                         Travel costs were paid only to individuals covered under its travel policy,
                          and
                         Travel costs were necessary and supported.

                  As a result, the Authority paid excess travel expenses to management staff and
                  contract consultants.35


     Conclusion


                  The Authority did not properly administer its Federal programs because it and its
                  board disregarded or failed to follow Federal regulations and laws, HUD
                  requirements, and its own personnel policies and Authority staff was not always
                  aware of regulations and program requirements. Additionally, with a lack of
                  adequate internal controls in place at the Authority, there was a higher risk of
                  potential fraud, waste, and abuse. Based on the multiple significant areas of
                  noncompliance identified during the audit, it was evident that the board did not
                  meet its fiduciary responsibilities to adequately monitor and oversee Authority
                  operations and ensure that adequate internal control procedures were in place and
                  followed. Although the board took some action to correct the deficiencies
                  identified by its independent public accountants, it did not ensure that there were
                  adequate internal controls in place to ensure that Federal program funds were used
                  for their intended purpose and in accordance with Federal requirements and
                  Authority policies and procedures or that it and Authority staff followed these
                  requirements. Based on the nature and extent of the multiple significant areas of
                  noncompliance, the Authority may be in substantial default with its annual
                  contributions contracts..

                  The Authority had begun taking steps to improve its internal controls and address
                  deficiencies identified during the audit. It developed a shared service agreement
                  with its instrumentality. It also had engaged an independent third-party contractor
                  to review its payroll and accounting records to support salary and associated costs
                  charged to Federal programs. The Authority stated it had implemented a work
                  order system to track time of maintenance and other personnel, had developed
                  policies and procedures, and provided training regarding its use. It had brought in

35
  Travel related expenses were included in the $95,000 in questioned costs and in our review of large purchase
procurements.


                                                        17
          a third-party contractor to help improve its procurement process and provide
          training to its staff, developed a procurement manager position, checklist and
          contract register, and plans to use an electronic procurement system. The
          Authority had also developed a journal voucher approval policy during the audit
          and updated its procurement policies.

          The Authority updated its travel policy during our audit to address some of the
          issues identified; however, it needs to follow its travel policy and put adequate
          procedures in place to ensure that it pays the correct travel costs to employees and
          consultants. It needs to ensure that it has adequate procedures in place to ensure
          that it does not charge Federal programs for ineligible costs and maintains
          adequate records in accordance with Federal requirements. In response to the
          findings by its independent public accountant, the Authority made improvements
          to the general ledger and accounting system, and merged various programs to one
          accounting system and began performing a monthly reconciliation to ensure that
          the interfund account transactions and revolving fund account transactions were in
          balance. However, the Authority did not ensure that interfund balances were
          timely settled. The Authority stated it had settled all but $1,478,950 and was
          taking steps to settle this amount. The Authority needs to provide support to
          HUD showing that it has settled all amounts. Further, if it cannot settle the
          amount owed by its component units timely, HUD should require the Authority
          perfect these loans, repay them with interest and penalties, and take administrative
          action as deemed necessary.


Recommendations



          We recommend that the Program Center Coordinator of HUD’s Hartford Office
          of Public Housing:

          1A. Inform the Deputy Assistant Secretary for Public and Indian Housing for
              Field Operations of the Authority’s potential substantial default with section
              17 of the Annual Contributions Contract.

          1B. Provide technical assistance to the Authority to establish an effective
              procurement system.

          1C. Prohibit the Authority from using the revolving fund account.

          We also recommend that the Program Center Coordinator require that the
          Authority

          1D. Reconcile and settle any amounts owed from the $7,505,433 in transactions
              recorded in its interprogram accounts as of its fiscal year end, June 30, 2011.



                                           18
    If the Authority does not timely settle the amounts owed by its component
    units, require that the Authority perfect these loans and repay them with
    interest and penalties, and take administrative action, as deemed necessary.

1E. Obtain an independent third party to determine the source and application of
    the funds that were part of the prior year adjustment and subsequent reversal.
    Any funds inappropriately paid out of HUD program funds should be
    reimbursed to HUD or the HUD program from non-Federal funds.

1F. Provide monthly accounting reports to HUD by the 30th of the succeeding
    month that address all HUD-funded programs, showing each program’s
    assets and liabilities, and should also include its balance sheet, revenue and
    expenses statement, statement of cash flows, and a comparison of budgets to
    actual costs.

1G. Support the $6,711,801 in unsupported salary and related costs charged to
    Federal programs, determine any additional unsupported salary and benefit
    costs, and repay any amounts that it cannot support with non-Federal funds.

1H. Determine how much of the $956,484 in undistributed salaries was expensed
    to Federal programs and repay any unsupported amounts.

1I. Properly track and charge costs to the instrumentality for services provided by
    Authority staff. HUD should review the January 2012 shared service
    agreement executed with its instrumentality and ensure it is adequate and that
    the Authority properly implements it.

1J. Support that $2,506,434 in contract costs charged to Federal programs was
    reasonable and supportable, and repay any amounts it cannot support with
    non-Federal funds.

1K. Establishes an adequate encumbrance system to ensure that costs do not
    exceed contract and purchase order terms and prices without proper approval.

1L. Properly trains its management and staff regarding Federal procurement
    requirements.

1M. Repay with non-Federal funds $49,095 in ineligible costs identified during
    our review of disbursements that was charged to its Federal programs.

1N. Provide supporting documentation for $46,483 in unsupported costs
    identified during our review of disbursements and if adequate support cannot
    be obtained, repay any amounts it cannot support from non-Federal funds.




                                19
We further recommend that the Program Center Coordinator ensure that the
Authority

1O. Establishes, documents, and follows sufficient internal controls for ensuring
    that salaries and other expenses are properly charged in accordance with
    requirements.

1P. Establishes, documents, and follows sufficient internal controls for the award
    and administration of its procurements and contracts that are consistent with
    HUD and Federal procurement regulations requirements and ensure that the
    Authority obtains approval from the Board for any contracts that exceed the
    Board approved amount.

1Q. Establishes, documents, and follows sufficient internal controls for the
    disbursement of funds requirements including ensuring costs are allowable
    and supported costs.

1R. Establishes, documents, and follows sufficient internal controls for hiring and
    promoting staff, including interim/temporary appointments, maintaining
    adequate personnel records, and performing interim evaluations
    requirements.

1S. Establishes, documents, and follows sufficient internal controls for travel
    reimbursement procedures including controls to ensure the Authority is
    paying the correct travel costs, including 1) reviewing travel documents and
    comparing them to credit card statements to ensure it is not paying for the
    same expenses twice, 2) reviewing management’s travel advances and
    reimbursements, 3) requiring the Authority to obtain supporting
    documentation from management, employees, and consultants for
    reimbursement requests to ensure they were actually incurred and are
    allowable, and 4) requiring the Authority to stop reimbursing travel costs to
    consultants and other individuals who are not Authority employees unless it
    is stipulated in the consultants contract or included in the Authority's travel
    policies.

We recommend that the Director of the Departmental Enforcement Center

1T: Consider taking administrative action against responsible parties including
    the Authority’s board of commissioners, executive director, former Executive
    Director, independent auditors and consultants.




                                 20
                        SCOPE AND METHODOLOGY

We conducted our audit between June 2011 and February 2012. We completed our fieldwork at
the Authority’s office located at 22 Clinton Avenue, Stamford, CT. Our audit covered the period
January 2008 through December 31, 2010, and was extended when necessary to meet our audit
objective.

To accomplish our audit objective, we

             Reviewed program requirements including Federal laws, the Code of Federal
              Regulations, public housing handbooks, public housing guidebooks, public and
              Indian housing notices, and consolidated annual contributions contracts between
              HUD and the Authority.

             Interviewed Authority staff, board members, and consulting and contractor staff
              used by the Authority.

             Reviewed policies and procedures in place at the Authority to determine policies
              and procedures to be tested.

             Reviewed audited financial statements, general ledgers and disbursement journals,
              and cost allocation plans as part of our testing for control weaknesses.

             Reviewed and tested the Authority’s internal controls over cost allocation,
              interprogram transactions, procurements, disbursements, credit card charges,
              hiring of staff, and travel costs to determine whether the Authority properly
              established and implemented internal controls. Computerized data were critical to
              the analyses of cost allocations and disbursements. To assess the data, we
              interviewed staff about the payment process, compared allocation plans to salary
              charges, tested for duplicate checks, and examined the process for voiding checks.
              We did not rely solely on the data but reviewed source documentation when
              available. There were data reliability issues in the Authority’s accounting system
              as discussed in our finding.

             Reviewed the Authority’s interprogram accounts to determine whether the
              Authority had established and implemented appropriate policies and procedures
              for accounting for interprogram funds and the use of a revolving fund for its
              Federal programs, State programs, and nongovernmental component units.

             Reviewed the Authority’s cost allocation plan to determine whether the plan had
              an appropriate basis, the Authority had implemented the plan across programs,
              and the Authority had distributed expenses consistently to ensure that expenses
              were charged to the benefitting program.




                                              21
             Selected a nonstatistical sample of 7 small purchase vendors and 15 large
              procurement vendors from a universe of 1,211 vendors that received more than
              $55.1 million from the Authority via small purchase procurements. Collectively,
              these 22 vendors received more than $8.8 million. We used a nonstatistical
              sample instead of 100 percent selection or representative selection sampling
              methods because we wanted to focus on higher risk areas identified during our
              review including temporary labor employees and consultants, contractors that
              received payments during our audit period that were not included on a list of
              contracts provided by the Authority, food caterers, and other vendors brought to
              our attention during the audit.

             Obtained and reviewed credit card statements for the period January 2008 to June
              2011 to determine whether charges were eligible, supported, and reasonable in
              price.

             Selected a nonstatistical sample of 89 checks from a universe of 4,515 checks
              totaling more than $19.6 million. Collectively, these 89 checks totaled $309,743.
              We used a nonstatistical sample instead of 100 percent selection or representative
              selection sampling methods because we wanted to focus on higher risk areas
              identified during our review including payments to consultants, employees, board
              members, restaurants, donations, and payments made for gas charges for vehicles.

             Reviewed hiring and promotions to determine whether they were performed in
              accordance with the Authority’s personnel policies.

             Reviewed travel payments and the Authority’s travel policy to determine whether
              its policy was adequate and properly implemented.


We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective(s). We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                               22
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
               We determined that the following internal controls were relevant to our audit
               objective:

                     Controls over interprogram transactions.
                     Controls over cost allocation.
                     Controls over expenditures to ensure that they are eligible, necessary, and
                      supported.
                     Controls over procurements.
                     Controls over the hiring and promotion of staff.
                     Controls over travel reimbursements.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.




                                                 23
Significant Deficiencies


             Based on our review, we believe that the following items are significant deficiencies:

                   Insufficient controls for reconciling and settling interprogram payables and
                    receivables (finding 1).
                   Inadequate controls to support salary and related costs charged or allocated
                    to Federal programs (finding 1).
                   Inadequate controls to ensure that costs are eligible and supported program
                    costs (finding 1).
                   Inadequate controls to show compliance with procurement requirements
                    (finding 1).
                   Inadequate controls to show compliance with personnel policies (finding 1).
                   Inadequate controls to show compliance with travel policies (finding 1).




                                              24
                                      APPENDIXES

Appendix A

                   SCHEDULE OF QUESTIONED COSTS

The audit identified $17,775,730 in question costs as follows:

                     Recommendation            Ineligible 1/     Unsupported
                            number                                        2/
                                   1D.                            $7,505,433
                                   1G.                            $6,711,801
                                   1H.                              $956,484
                                    1J.                           $2,506,434
                                   1M.              $49,095
                                   1N.                               $46,483




1/     Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
       that the auditor believes are not allowable by law; contract; or Federal, State, or local
       policies or regulations.

2/     Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
       or activity when we cannot determine eligibility at the time of the audit. Unsupported
       costs require a decision by HUD program officials. This decision, in addition to
       obtaining supporting documentation, might involve a legal interpretation or clarification
       of departmental policies and procedures.




                                               25
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         26
Ref to OIG Evaluation   Auditee Comments




                         27
Ref to OIG Evaluation   Auditee Comments




                         28
Ref to OIG Evaluation   Auditee Comments




Comment 1




Comment 2




                         29
Ref to OIG Evaluation   Auditee Comments




Comment 3




Comment 4




                         30
Ref to OIG Evaluation   Auditee Comments




Comment 5




Comment 6




                         31
Ref to OIG Evaluation   Auditee Comments




Comment 7




                         32
Ref to OIG Evaluation   Auditee Comments




                         33
Ref to OIG Evaluation   Auditee Comments




Comment 8




Comment 9




Comment 10




                         34
Ref to OIG Evaluation   Auditee Comments




Comment 11




                         35
Ref to OIG Evaluation   Auditee Comments




                         36
Ref to OIG Evaluation   Auditee Comments




                         37
Ref to OIG Evaluation   Auditee Comments




                         38
Ref to OIG Evaluation   Auditee Comments




                         39
Ref to OIG Evaluation   Auditee Comments




Comment 12




                         40
Ref to OIG Evaluation   Auditee Comments




                         41
Ref to OIG Evaluation   Auditee Comments




                         42
Ref to OIG Evaluation   Auditee Comments




Comment 13




                         43
Ref to OIG Evaluation   Auditee Comments




Comment 14




Comment 15




                         44
Ref to OIG Evaluation   Auditee Comments




                         45
Ref to OIG Evaluation   Auditee Comments




Comment 16




                         46
Ref to OIG Evaluation   Auditee Comments




Comment 17




Comment 18




Comment 19




                         47
Ref to OIG Evaluation   Auditee Comments




Comment 20




Comment 21




                         48
Ref to OIG Evaluation   Auditee Comments




Comment 22




Comment 23




                         49
Ref to OIG Evaluation   Auditee Comments




Comment 24




                         50
Ref to OIG Evaluation   Auditee Comments




Comment 25




                         51
Ref to OIG Evaluation   Auditee Comments




                         52
Ref to OIG Evaluation   Auditee Comments




Comment 26




                         53
Ref to OIG Evaluation   Auditee Comments




                         54
                                    OIG Evaluation of Auditee Comments

Comment 1           We do not agree that the adjustment to write off what was considered an
                    unsupportable balance of $2.6 million and the FY2011 reversal were strictly
                    balance sheet transactions. According to the independent public accountant
                    (IPA), in 2009, the Authority made an adjustment to write-off what was identified
                    as an unsubstantiated debit balance/interprogram imbalance on the balance sheet
                    of the Low Rent Public Housing Program in the amount of approximately $2.6
                    million. In its review, the independent auditor, Hurley, O'Neill & Company,
                    stated the balance was unsupportable and indicated a need to qualify or disclaim
                    its opinion if the balance remained as stated.

                    In fact, according to the letter from the IPA included in the Authority’s response,
                    "the (need for the) adjustment came at a time when the Authority was attempting
                    to rectify significant accounting deficiencies that had developed in a control
                    environment that was not sufficient to minimize the risks of material
                    misstatement, noncompliance, fraud, waste or abuse. Despite significant efforts
                    by management to address these matters and reconcile interprogram balances, the
                    complex nature of the Authority and ill-advised past practices made it difficult to
                    ascertain the exact identity of the [$2.6 million] imbalance." Additionally, the
                    manner in which this adjustment was presented in its audit report, along with the
                    unqualified opinion may have contributed to less HUD monitoring. HUD relies
                    on IPA's to accurately report on conditions, such as this, that exist within the large
                    inventory of public housing authority's they manage. Also see Comment 2.

Comment 2           In 2009, the Authority reported to HUD through a note to its audited financial
                    statements that it was making a prior period adjustment to correct an error made
                    in a prior year. This note36 to the audited financial statement does not clearly
                    show that the prior period adjustment was a write-off of the amounts that the
                    Authority was unable to reconcile. This note stated “The prior period adjustment
                    in the Public Housing programs of $(2,650,172) was for adjustments for prior
                    year interfund transactions improperly recorded as accounts receivable or
                    interfund balances and not expenses.” Two years later, the Authority reported to
                    OIG that this prior period adjustment was itself an error. The Authority has not
                    provided sufficient, competent, relevant evidence to adequately explain this $2.6
                    million adjustment and attributing decisions to a fee accountant is not appropriate
                    as the Authority is responsible for the work of all its contractors including its fee
                    accountant.

Comment 3           The Authority identifies here that it provided, in 2009, $2.6 million in Public
                    Housing Operating Fund monies to non-federal projects for the development costs
                    of tax credit replacement projects. For two years, these monies were not available
                    to the Public Housing projects and Stamford residents.


36
     Note 19 was included in the Authority’s audited financial statements for the fiscal year ended June 30, 2009.



                                                           55
Comment 4     OIG agrees that these amounts need to be settled, however, it does not agree that
              the $7.5 million in transactions are supported. As included in the report, the
              Authority’s revolving fund account had not been reconciled on a routine basis.
              The Authority had a revolving fund account that it used to hold Federal and State
              program funds and pay the expenses of its various programs. However, it did not
              ensure that the payment of expenses from the revolving fund did not exceed the
              funds on deposit in the revolving fund from each source program as required.
              Further, the Authority acknowledged that component units have owed the
              revolving fund for expenses of for two to three years, which would constitute a
              loan to these programs, which is a violation of HUD regulations, Federal
              Appropriations Law, and its ACCs. These loans have been on the books for years
              to the detriment of the Federal programs. HUD entrusted the Authority with
              Federal funds to be used for specific programs.

Comment 5     See comment 1 and 2.

Comment 6     OIG disagrees with this statement that the executive director’s level of comfort
              was not related to the prior period adjustment. In response to OIG's request for
              additional information regarding this prior period adjustment and reversal, the
              executive director responded via email, "I felt uncomfortable with the prior period
              adjustment and requested that it be reversed pending further internal review
              (emphasis added) of the interfund activity."

Comment 7     Proper utilization of a pooled cash method, such as a revolving fund, can
              minimize costs; however, this Authority has not used its revolving fund properly.
              This Authority loaned Federal money to cover expenses of non Federal projects
              and affiliated entities. A notice on cash management efficiencies does not
              supersede Appropriations Law, which assigns Federal funds to specific Federal
              programs.

Comment 8     OIG disagrees that the assets of federal programs were not compromised. The
              prior period adjustment reduced the Public Housing Operating Fund program
              reserves for a two year period.

Comment 9     See comment 4.

Comment 10 OIG disagrees that expenses were always accounted for at the program level. In
           fact, the IPA’s own finding in its 2009 audit report states that certain expenses
           were incorrectly charged to inter-company accounts for several of the Authority's
           programs and that the lack of control procedures over financial reporting and
           compliance could cause the financial statements to be materially misstated and
           Federal or State dollars to be used for non allowable costs. We adjusted the report
           background as necessary. Furthermore, the Authority’s response stated that it
           made the prior period adjustment based on the fee accountant’s assessment that all
           non-Public Housing Operating Fund programs were “materially” accounted for,
           and that appropriate source for the receivable was the Public Housing Operating



                                              56
                  Fund program. The Authority then stated that it reversed the prior period
                  adjustment based on further reconciliation that showed that development costs
                  were not properly accounted for and were misclassified in fiscal year 2009 as the
                  obligation of the Public Housing Operating Fund program.

Comment 11 HUD will have to determine whether this "blended methodology" meets Federal
           requirements including that its plan defines a basis for allocating costs,37 provides
           consistent treatment between Federal and non-Federal Programs and provides
           consistent treatment among Federal programs from different Departments or
           Agencies.

Comment 12 OIG identified significant deficiencies for the entire audit period and revised the
           report as necessary to include additional examples. We reviewed procurements
           under the new and former administration and found the same type of deficiencies.

Comment 13 We acknowledge the Authority’s efforts to support the $46,000 in unsupported
           costs, however, the Authority is responsible for maintaining adequate records to
           support uses of Federal funds. As recommended, the Authority needs to provide
           supporting documentation for $46,483 in unsupported costs identified during our
           review of disbursements and if adequate support cannot be obtained, repay from
           non-Federal funds.

Comment 14 Given the facts as detailed in the Finding, and with all due respect to the current
           executive director, we respectively disagree that the board’s actions and failure to
           follow federal regulations and its personnel policies in the three appointments
           should be minimized and attributed to a difficult timing issue. As reported, the
           process followed to appoint the current director started in January 2009 when the
           board appointed a long-time Authority consultant as its interim executive director
           effective January 9, 2009, continued in March 2009 when the board entered into
           an agreement with the instrumentality for acting executive director services,
           effective March 26, 2009, instead of performing a search for an executive
           director. Also, although there was an employment agreement in place between the
           instrumentality and the consultant, he was paid under his expired consultant
           contract up to July 2009 and did not become an employee of the instrumentality
           until July 2009. The board authorized a payment of $18,275 to the director for
           retirement compensation in accordance with his January 2009 employment
           agreement.

                  The board did not post the available position in accordance with its personnel
                  policy. Further, it failed to follow legal advice from its counsel, who
                  recommended that the board amend the Authority’s personnel policies before it
                  filled positions on a temporary basis without following its personnel policies.38

37
   This basis is the unit of measure used to allocate expenses to a particular program and must be reasonable for all
of the entities' programs in accordance with 2 CFR 225 Attachment A Section C.
38
   The board sought this advice before renewing its agreement with the instrumentality for executive director
services in March 2010.


                                                          57
               Lastly, as reported, when the board renewed its agreement with the
               instrumentality to continue to provide executive services in March 2010, it also
               revised its scope of services from an acting executive director to an executive
               director; thereby making the position permanent.

               The board’s removal of any competition from the hiring process deprived the
               Authority of a chance to pay wages comparable in the industry, or have the
               benefit of seeing what skills sets were available in management or finance.
               Bringing in an independent person with the necessary skill sets to assess and
               reorganize the Authority may have provided better results. Further, putting the
               executive director through a competitive process would have put the Authority in
               a better position to negotiate the terms of his contract (salary, benefits, term of
               contract). It is not clear to OIG why a responsible Commissioner would not want
               to obtain a pool of qualified candidates or why it would not want to be better
               placed to negotiate the terms of the executive director contract. Following a hiring
               process does not mean you cannot ultimately hire your top pick. This failure to
               conduct a process, along with the other areas of material noncompliance is a
               breach of their fiduciary duty to the Authority and the actions should be
               considered in the recommendation to the Director of the Departmental
               Enforcement Center.

Comment 15 The Authority did not advertise or compete these positions. The step cited in this
           section should be taken after they have competed and selected a qualified
           candidate. Because it didn’t follow its hiring process in the first place, there is no
           assurance that the Authority was paying the best possible price for the most
           qualified individuals.

Comment 16 As included in footnote 2 of the report, 24 CFR (Code of Federal Regulations)
           901.200 provides that HUD may determine that events have occurred or that
           conditions exist that constitute a substantial default if a public housing authority is
           determined to be in violation of Federal statutes, or in violation of regulations
           implementing such statutory requirements, whether or not such violations would
           constitute a substantial breach or default under provisions of the relevant annual
           contributions contract. As stated throughout the report and summarized in
           Appendix C, the Authority was found in violation of multiple regulations. In our
           opinion due to the nature, seriousness, and extent of the violations, such violations
           may raise to the level of a substantial default as provided in 24 CFR 901.200.
           HUD makes the determination of a substantial default and if it determines that
           there was a substantial default, it can take the appropriate corrective action
           through an established corrective action plan with specific metrics.

Comment 17 See comment 16.

Comment 18 See comment 16. OIG used "potential" substantial default in recommendation
           1A, as this is a determination for HUD.




                                                58
Comment 19 OIG revised the wording in the report from "may be in material noncompliance"
           to "may be in substantial default" to be consistent with the language used in the
           ACCs. OIG also clarified in the report the basis for its statement that the
           Authority may be in substantial default of its ACCs.

Comment 20 See comment 16. HUD will determine whether the Authority was in substantial
           default with its ACCs and which remedies should apply to the Authority, as a
           result.

Comment 21 OIG disagrees with removing this recommendation. The Authority needs to
           demonstrate to HUD that its can use the revolving fund account properly to
           ensure that federal funds are only used for federal program expenses and until
           such time, HUD should prohibit the Authority from using the revolving fund
           account.

Comment 22 OIG disagrees that an independent third party is not necessary and as such, did
           not revise this recommendation. See comment 10. Also, the Authority stated in
           its response that the write-off was based on the reconciliation of all other accounts
           and that left the imbalance with the Public Housing Operating Fund program,
           however, clearly the imbalance did not belong to the Public Housing Operating
           Fund program, as evidenced by its reversal in fiscal year 2011. The Authority
           did not provide support during the audit or with its response to show how it had
           determined the imbalance in 2009 and the reversal belonged to the Public
           Housing Operating Fund program. The Public Housing Operating Fund
           program's operating reserves were reduced for a two year period.

Comment 23 We revised the recommendation to the 30th of the succeeding month.

Comment 24 See comment 11.

Comment 25 OIG acknowledges the Authority’s initial efforts to support the questioned costs
           with its Cost Price Analysis. The Authority should continue its efforts and show
           that $2,506,434 in contract costs charged to Federal programs are reasonable and
           supported and repay any amounts it cannot support with non-Federal funds.

Comment 26 OIG acknowledges the past and current efforts made by the Authority; however
           we do not agree that the Authority’s inability to adequately monitor and oversee
           Authority operations and ensure that adequate internal control procedures were in
           place and followed and the resulting areas of material noncompliance identified
           throughout the report do not warrant further review by the Departmental
           Enforcement Center to determine whether administrative sanctions should be
           taken. Based on the nature and extent of the multiple significant areas of
           noncompliance, the Authority may be in substantial default with its annual
           contributions contracts and misspent Federal funds and based on the actions of the
           board, it may have breached its fiduciary responsibility to the Authority.




                                              59
Appendix C

               APPLICABLE CRITERIA AND VIOLATIONS


                                                          The Authority did not fully reconcile its
Section 8 Housing Choice Voucher program annual           interprogram transactions.
contributions contract, paragraphs 11(a)(b)(c),
12(a)(b), 13(c)                                           The Authority could not support more than $2.6
                                                          million in interfund transactions it wrote-off in
Low-rent and Capital Fund programs annual                 fiscal year 2009 as a prior period adjustment or the
contributions contract, section 9(A),(B), and (C),        reversal made in fiscal year 2011.
section 10(A),(B), and (C)
                                                          The Authority did not ensure adequate deposits
Federal Appropriations Laws as applicable for each        were made by some programs to the revolving fund.
fiscal year
2 CFR (Code of Federal Regulations) 225, Cost             The Authority could not support $6.7 million in
Principles for State, Local, and Indian Tribal            salaries and related salary costs.
Governments (Office of Management and Budget
(OMB) Circular A–87)                                      The Authority could not support how $956,000 in
                                                          undistributed salaries was expensed to its programs.

HUD Handbook 7420.6, chapter 5, paragraph 24c
24 CFR 85.36, Administrative Requirements for             The Authority failed to comply with HUD
Grants and Cooperative Agreements to State, Local         procurement regulations and its own procurement
and Federally Recognized Indian Tribal                    policies.
Governments-Procurement
                                                          The Authority did not adequately award or
HUD Handbook 7460.8, REV-2, Procurement                   administer its contracts and purchase orders in
Handbook for Public Housing Agencies HUD                  accordance with Federal requirements.

The Authority’s procurement policy, effective 1992        The Authority failed to maintain a contract register
The Authority’s procurement policy, effective June        or procurement files to show the history of the
2011                                                      procurement and lacked adequate monitoring and
                                                          oversight of contracts and payments.
2 CFR 225, Cost Principles for State, Local, and          The Authority did not have adequate controls over
Indian Tribal Governments (Office of Management           disbursements.
and Budget (OMB) Circular A–87)

The Authority’s own personnel policies                    The board and its executive director did not follow
24 CFR 85.36, Administrative Requirements for             the Authority’s personnel policies or procurement
Grants and Cooperative Agreements to State, Local         requirements.
and Federally Recognized Indian Tribal
Governments-Procurement
The Authority’s travel policy                             The Authority did not follow its travel policy.




                                                     60
